September 28, 2009

ANTHONY C. WILLIAMS
MANAGER, NORTHLAND DISTRICT

SUBJECT: Audit Report – Northland District – Business Mail Entry
         Financial Risk (Report Number FF-AR-09-224)

This report presents the results of our audit of the Northland District business mail entry
(BME) financial activities (Project Number 09BD018FF000). We conducted this self-
initiated audit at the                                    Business Mail Entry Units
(BMEUs) to evaluate financial risk as identified by a U.S. Postal Service Office of
Inspector General (OIG) Performance and Results Information Systems (PARIS) model.
See Appendix A for additional information about this audit.

Conclusion

Based on the transactions we reviewed, internal controls over timely postage statement
entry, customer trust accounts, and transaction overrides were generally in place and
effective. However, we identified a few areas related to late postage statements,
inactive customer deposit accounts, and Periodicals verifications that could be
improved. There were a variety of causes for these issues, but, overall, the district is
monitoring and addressing the issues. In addition, while the two BMEUs we audited
had a large number of transaction overrides, these were primarily due to system issues.
See Appendix B for our detailed analysis of this topic.

We identified monetary impact totaling $3,664 for recoverable revenue loss1 from not
closing inactive customer accounts, and $146,096 in non-monetary impact for revenue
at risk2 for late postage statements and unverified Periodicals mailings. See
Appendix C for further information on the monetary and non-monetary impacts.

Timely Postage Statement Entry

Of almost 14,000 postage statements processed by the
BMEUs during April 2009, we identified 47 with postage totaling $63,648 that
employees entered from 1 to 40 days late. Unit employees cited various causes for late
entries, including network connectivity problems with the laptops at detached mail

1
 Revenue that can be collected for goods delivered or services rendered.
2
 Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service).
Northland District – Business Mail Entry                                     FF-AR-09-224
 Financial Risk Audit


units (DMU) and mailers dropping off time-sensitive Periodicals after normal business
hours. For some, they could not provide an explanation. The Postal Service has an
increased risk that its mailings will not meet standards, and it will lose revenue when
controls are not effective or employees do not follow them. The district BME
management monitors late postage statements weekly and follows up with the units to
determine the causes. We believe this monitoring was effective in minimizing the
number of instances of late postage statements, and, as such, we are not making a
recommendation. See Appendix B for our detailed analysis of this topic.

Customer Trust Accounts

Of almost         customer accounts at the                              BMEUs, we
identified 49 inactive customer accounts (totaling $23,430) that employees should have
closed. Both units were monitoring and closing inactive accounts, which we believe
helped to minimize the number of inactive accounts based on the volume of mail
processed at these units. The units attributed the causes for the inactive customer
accounts to a recent change in responsibility for monitoring the accounts at one unit and
a technician at the other unit not realizing that some accounts needed to be tracked
manually. When the Postal Service does not close inactive accounts or refund
balances to customers or transfer those balances to miscellaneous non-postal revenue,
as prescribed, there is an increased risk of funds being withdrawn and used for
unauthorized purposes. Both units took corrective action on all 49 inactive accounts by
sending non-use letters to customers and closing these accounts. As such, we are not
making a recommendation. We are claiming $3,664 transferred to non-postal revenue
as monetary impact. See Appendix B for our detailed analysis of this topic.

Periodicals Mailings

District BME management allowed two time-sensitive Periodicals publishers at the
             BMEU and one at the                  BMEU to send mail without the Postal
Service conducting random monthly in-depth verifications.3 The district BME Manager
was aware of these issues and stated they occurred due to scheduling issues with the
mailers. Specifically, the district BME Manager stated that two of the Periodicals are
monthly publications and it is difficult to verify them because the mailer does not have a
set schedule for dropping them off at the BMEU. The third publisher drops mail at a
nearby general mail facility, which makes verification more difficult. The district BME
Manager stated he is working with both mailers to make arrangements so Postal
Service employees can conduct the random monthly in-depth verifications. The Postal
Service has an increased risk that mailings will not meet standards and revenue will be
lost when controls are not effective or followed.




3
    Handbook DM-109, Business Mail Acceptance, Section 5-8.4 January 2009.




                                                        2
Northland District – Business Mail Entry                                                        FF-AR-09-224
 Financial Risk Audit


We recommend the Manager, Northland District, direct Business Mail Entry
management to:

1. Provide for random, monthly, and in-depth verifications of time-sensitive Periodicals.

Transaction Overrides4

While the                                BMEUs had a significant number of transaction
overrides, two of the overrides, piece weight and mail fee, were primarily caused by
system issues not in the unit or district’s control. We will address these issues
separately in our fiscal year (FY) 2009 Financial Installation Audit – BMEUs report,5
which summarizes Postal Service-wide issues relating to the BMEUs. Another type of
override for negative balances occurred primarily because of scheduling issues
regarding the input of checks into the Point-of-Service (POS) system. We determined
that in all but a few of the transactions we reviewed, BMEU personnel cleared the
negative balances within 2 to 3 days. As such, we are not making a recommendation.
See Appendix B for our detailed analysis of this topic.

Management’s Comments

Management agreed with our findings and recommendation. Management stated that a
comprehensive plan for performing random monthly in-depth verifications has been
developed and will be in place throughout the Northland District effective November 1,
2009. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation in the
report. Management’s corrective actions should resolve the issue identified in the
report.




4
  An override is required any time a business rule or criteria in PostalOne! is not followed. The Override Report is
available so that management can monitor the overrides.
5
  Project Number 09BD002FF000.




                                                           3
Northland District – Business Mail Entry                             FF-AR-09-224
 Financial Risk Audit


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda J. Libician-Welch,
Director, Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Pritha N. Mehra
    Robert I. Galaher
    Steven R. Phelps
    Steven J. Juhl
    Kim R. Harbeck
    Bill Harris




                                           4
Northland District – Business Mail Entry                                           FF-AR-09-224
 Financial Risk Audit


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

A BMEU is a Postal Service unit established for authorized business mailers to present
business mailings. The Postal Service requires all mailings to be properly prepared by
the mailer, taken to an approved BMEU, and paid for before entering the mailstream.

The PostalOne! system is a suite of services that offers web-based initiatives for
business mailers and business mail acceptance (BMA) employees. A postage
statement must accompany each mailing. BMEU acceptance employees should enter
postage statement information into PostalOne! by close of business on the day the
mailing was accepted.

PostalOne! allows acceptance employees to override various data entry selections
when entering postage statements and generates a report detailing information on the
overrides. BMEU supervisors should ensure that acceptance employees are following
correct procedures for overrides.

The Postal Service also uses PostalOne! to record and track customer trust fund
account information for authorized mailers. Trust funds are comprised of advance
deposits for permit imprint, Periodicals, business reply, postage due, and Express Mail®
accounts. The Postal Service maintains separate accounts for each service by
customer.

An OIG developed BMEU PARIS model6 indicated that as of the end of April 2009, the
Northland District was ranked the highest risk district in the nation. The model uses
PostalOne! data to assign risk for 15 factors based on compliance, and ranks the Postal
Service’s 80 districts. The 15 risk factors are comprised of nine override, four late
postage statement, and two inactive account performance indicators. The following
table presents the ranking for the risk factors included in our audit scope as of April 30,
2009, and updated as of the end of June 2009.

                                                         OIG BMEU PARIS Model
                                                                  Ranking7
                Risk Factor                            April 30, 2009   June 30, 2009
                Late postage statements                             22             12
                Transaction overrides                                 2             2
                Inactive trust accounts                               7            15
                Overall                                               1             1




6
    The OIG developed the BMEU PARIS model using financial data from PostalOne!.
7
    The model ranks districts from one to 80.




                                                        5
Northland District – Business Mail Entry                                                     FF-AR-09-224
 Financial Risk Audit


As of the end of April 2009, the model showed the district with 406 late postage
statements with balances totaling $450,199; 2,724 overrides on transactions totaling
$12,132,334; and inactive customer accounts with balances totaling $656,857.

Several factors contributed to the model’s ranking of the district. The district has
several very large mailers who regularly have high-dollar value mailings, many of which
are for time-sensitive Periodicals that mailers drop off after normal business hours,
causing late postage statement entry. The model bases the risk ranking for late
postage statement entry on the value of the mailings. The district also has a significant
amount of large balances for Additional Postage Accounts (ADDPOS),8 most of which
we determined were active, but which contributed to the district’s high-risk ranking. The
model includes these ADDPOS account balances in ranking the district’s risk for
inactive accounts. And finally, the model bases the risk for transaction overrides on the
dollar value of the mailings that are overridden. We determined many of the overrides
resulted from system issues beyond the scope of the district’s control. Many of these
issues contributed to the district’s high ranking. See Appendix B for our detailed
analysis of this topic.

The Northland District’s 85 BMEUs reported $1.5 billion in revenue for FY 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine, at selected units in the Northland District,
whether internal controls over timely postage statement entry, customer accounts, and
transaction overrides were in place and effective.

To accomplish our objective, we randomly selected and reviewed transactions
generated for the April 2009 reporting period related to postage statement entry,
inactive customer accounts and transaction overrides at the
BMEUs. These units accounted for $454 million in revenue, 30 percent of the district’s
BMEU revenue in FY 2008. As of April 2009, the OIG PARIS model showed these two
BMEUs had 112 late postage statements with postage of $177,971.9 The model
showed the two units had $755,819 in override transactions, the largest amount in the
district. The model also showed the two units had 906 inactive customer accounts with
balances totaling $385,432.

Based on the interviews with the BMEU staff during the audit, we expanded our scope
to review verifications for time-sensitive Periodicals mailings.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to

8
  ADDPOS accounts are created in PostalOne! to collect additional postage and maintain the activity to pay additional
postage.
9
  In addition, we reviewed a BMA report and identified 32 late postage statements, totaling $51,306, for Centralized
Automated Payment System accounts.




                                                         6
 Northland District – Business Mail Entry                                      FF-AR-09-224
  Financial Risk Audit


 source documents. We used Postal Service instructions, manuals, policies, and
 procedures as criteria to evaluate internal controls and data reliability. We interviewed
 supervisors and employees and observed operations at these judgmentally selected
 units. We interviewed the district BME Manager to determine what procedures the
 district had in place to monitor inactive accounts, transaction overrides, and late
 postage statements.

 We conducted this performance audit from June through September 2009 in
 accordance with generally accepted government auditing standards and included such
 tests of internal controls as we considered necessary under the circumstances. Those
 standards require that we plan and perform the audit to obtain sufficient, appropriate
 evidence to provide a reasonable basis for our findings and conclusions based on our
 audit objective. We believe that the evidence obtained provides a reasonable basis for
 our findings and conclusions based on our audit objective. We discussed our
 observations and conclusions with management on August 24, 2009, and included their
 comments where appropriate.

 PRIOR AUDIT COVERAGE

 The OIG issued the following financial audit reports for BMEUs in the Northland District
 within the past 3 years. Management agreed with our findings and recommendations in
 each report.

                                  Final                   Non-
  Report          Report         Report     Monetary    Monetary
   Title          Number          Date       Impact      Impact              Report Results
FY 2009        FF-AR-09-190      6/24/09       $3,350          -   We reported various issues,
Financial                                                          including those related to five
Installation                                                       inactive customer accounts with
Audit –                                                            balances totaling $3,350, and
                                                                   presort acceptance overrides.
BMEU
FY 2009        FF-AR-09-183      6/18/09            -          -   We reported various issues,
Financial                                                          including presort overrides for
Installation                                                       which technicians did not perform
Audit –                                                            Mailing Evaluation Readability
                                                                   Look up INstrument verifications
                                                                   when prompted by PostalOne!.
BMEU
FY 2009        FF-AR-09-169      5/19/09            -          -   We reported various issues,
Financial                                                          including completion of postage
Installation                                                       statements such as verifying time
Audit –                                                            and date of arrival, publication
                                                                   number, and owner or agent’s
                                                                   printed name.
BMEU




                                                   7
      Northland District – Business Mail Entry                                             FF-AR-09-224
       Financial Risk Audit


                                  Final                     Non-
  Report          Report         Report      Monetary     Monetary
   Title          Number          Date        Impact       Impact                   Report Results
FY 2009        FF-AR-09-162      5/8/09              -               -   We reported various issues
Financial                                                                including an issue with Permit
Installation                                                             verifications at one DMU.
Audit –
x
BMEU
FY 2008        FF-AR-08-199      6/5/08          $6,213        $38,530   We reported various issues,
Financial                                                                including identification of 21
Installation                                                             inactive customer accounts, with
Audit –                                                                  balances totaling $6,213, and 57
x                                                                        late postage statements, with
x                                                                        postage of $38,530.
BMEU
FY 2008        FF-AR-08-161      4/21/08         $1,968       $167,110   We reported various issues,
Financial                                                                including identification of 53 late
Installation                                                             postage statements with postage
Audit –                                                                  of $167,110.
x
BMEU
FY 2008        FF-AR-08-066      1/8/08               -        $22,437   We reported various issues,
Financial                                                                including six inactive customer
Installation                                                             accounts, with balances totaling
Audit –                                                                  $548, and 22 late postage
x                                                                        statements, with postage of
BMEU                                                                     $22,437.
FY 2008        FF-AR-08-061      1/2/08               -              -   We identified one issue regarding
Financial                                                                advertising percentage reviews not
Installation                                                             conducted.
Audit –
x
x
x
BMEU
FY 2007        FF-AR-07-249      9/4/07               -              -   We reported various issues,
Financial                                                                including identification of six
Installation                                                             inactive customer accounts with
Audit –                                                                  balances totaling $189.
x
BMEU




                                                          8
  Northland District – Business Mail Entry                                                      FF-AR-09-224
   Financial Risk Audit


                                    APPENDIX B: DETAILED ANALYSIS

  Timely Postage Statement Entry

  Of 13,847 postage statements processed by the                                 BMEUs in
  April 2009, PostalOne! and BMA reports presented 124 as late. After analysis, we
  considered 47 postage statements with postage of $63,648 as entered late. We did not
  consider the remaining 77 late, because these statements were generally for either
  time-sensitive Periodicals that publishers dropped off after business hours and for which
  BMEU employees entered at the earliest possible time, or they were late due to date
  entry and correction issues. The following table presents the causes for late postage
  statement entry and the postage amount associated with the statements.

Cause for Late            April 2009 Postage Statements Shown As Late in
Postage                              PostalOne! and BMA Reports
Statement Entry                   BMEU               BMEU        Total10
(number of days late) Number    Dollars   Number Dollars Number Dollars
Statements we consider entered late
Network/
connectivity
(1 to 3 days)             20     $33,666         0        $0     20    $33,666
Employees could
not provide reason
(1 to 12 days)            12      14,097         4       784     16     14,881
Periodicals
dropped off after
hours
(2 to 28 days)             1          59         3     1,419      4      1,478
Bypass mail11
(22 to 40 days late)       3       2,895         0         0      3      2,895
Other (1 day)              3       4,665         1     6,063      4     10,728
Subtotal                  39     $55,382         8    $8,266     47    $63,648
Statements we do not consider entered late
Periodicals
dropped off after
hours
(1 to 3 days)             24      $9,760         7    $1,877     31    $11,637
Data entry
error/reversal
(not applicable)          43      63,466         3     2,149     46     65,615
Subtotal                  67     $73,226        10    $4,026     77    $77,252
Total                    106 $128,608           18 $12,292      124 $140,900


  10
                                  BMEUs had                   postage statements, respectively, for April 2009.
  11
       Bypass mail enters the mailstream without the BMEU recording the transaction, resulting in unrecognized revenue.




                                                             9
Northland District – Business Mail Entry                                                        FF-AR-09-224
 Financial Risk Audit


The most frequent cause for late postage statements was network connectivity issues
with recently issued laptops employees used at DMUs associated with the
BMEU. BMEU and district BME management stated they were aware of this issue and
had been working to resolve the issues. Employees could not provide a reason for the
late entry of 16 statements. Four late statements were associated with time sensitive
Periodicals that mailers dropped off after business hours. We considered these late
because employees did not enter these statements on the next business day. Bypass
mail accounted for three statements being entered late. We categorized four
statements as being late for other reasons.  

As shown in the preceding table, we did not consider 31 statements associated with
time-sensitive Periodicals that mailers dropped off after business hours as late because
employees entered them into PostalOne! on the next business day. In addition, 46
postage statements shown as late in PostalOne! were not late. Rather, employees had
either entered the wrong mailing date or made reversals to correct initial data entry
errors. Specifically, for 20 postage statements, employees had disqualified mail12 but
had mistakenly entered the mailing date as the date the mail was presented, versus the
date the mail qualified. Some unit employees did not realize the date of mailing in
PostalOne! must reflect the date mail was released to operations. We audited April
2009 data, but by June 2009, the time of our audit, the district had already recognized
and resolved this issue. For 26 statements shown as late, employees responsible for
checking the accuracy of postage statements reversed the postage statements to make
corrections, for which the system reported the statements as late.

The district BME management stated they review MicroStrategy reports weekly to
monitor for late postage statements. If the late statement is not caused by a known
issue, management attempts to determine the cause for the late statements and
contacts the individual units. We attribute the relatively small number of late postage
statements at the                               BMEUs to the district’s monitoring efforts.
Timely entry of postage statements is critical to the Postal Service recognizing revenue
when due. We are reporting $63,648 in non-monetary impact for revenue at risk related
to the late postage statements at these two units.

Customer Trust Accounts

As of April 2009, the OIG BMEU PARIS model showed the
BMEUs having 906 inactive accounts totaling $385,432. However, $229,343 of this
amount related to ADDPOS, of which only $4,060 was inactive. During our audit, we
identified 49 accounts, with balances totaling $23,430, which employees should have
closed. This represents a very small percentage of the 7,873 accounts the two units
maintained. Specifically:




12
     Occurs when errors are identified during any of the verification procedures beyond established tolerances.




                                                            10
Northland District – Business Mail Entry                                                     FF-AR-09-224
 Financial Risk Audit


     •    Of        customer accounts at the           BMEU, 26 with balances totaling
          $17,953 were inactive. BMEU management stated the Mailing Requirements
          staff assumed responsibility to monitor these accounts from Financial Control
          and Support in May 2009 and had overlooked them.

     •    Of       customer accounts at the                 BMEU, 23 with balances totaling
          $5,477 were inactive. The Technician responsible for monitoring the accounts
          stated she did not realize that Additional Postage and Periodicals accounts
          needed to be tracked manually. The Supervisor stated this responsibility had
          only recently been transferred from the district Mailing Requirement team to the
          unit.

Unit personnel took corrective action on all 49 inactive accounts by sending notices to
the customers and either refunding the balances to customers or transferring the
balances to miscellaneous non-Postal Service revenue.13

The Postal Service has an increased risk that mailings will not meet standards and
revenue will be lost when controls are not effective or followed. We are reporting
$3,664 in monetary impact for recoverable revenue related to the inactive customer
trust accounts at these two units.

Transaction Overrides

The                            BMEUs had a large dollar value of piece weight,
mailing fee and negative balance overrides in April 2009, as shown in the following
table.

                                   April 2009 Transaction Overrides
                       Piece Weight           Mailing Fee        Negative Balance
                     Number               Number                Number
                       of                    of                    of
         Unit       Overrides Revenue Overrides Revenue Overrides Revenue
                           59  $47,516           27    $12,272        208 $243,046
                          123  185,012           51    154,503         85    93,943
 Total                    182 $232,528           78 $166,775          293 $336,989

We determined the piece weight and mailing fee overrides were generally related to
system issues not within the district or units’ control. We will address these issues
separately in our FY 2009 Financial Installation Audit – BMEUs report.14 That project

13
   The units refunded $17,391 to customers and transferred $3,664 to Miscellaneous Non-Postal Revenue. In
addition, three customers with balances totaling $115 requested to keep their accounts. Technicians alerted the
Pricing and Classification Service Center in New York, NY, for action on three accounts with balances totaling
$2,220. One customer with a balance of $40 used their account.
14
   Project Number 09BD002FF000 is associated with audits conducted in support of the audit of the U.S. Postal
Service’s financial statements.




                                                         11
Northland District – Business Mail Entry                                                    FF-AR-09-224
 Financial Risk Audit


will summarize Postal Service-wide issues relating to BMEUs. The negative balance
overrides, however, were due to processes established at the BMEUs. See the
following for discussion of each type of override.

     •   Piece Weight Overrides. The piece weight overrides are common overrides
         generated by PostalOne! for transactions that change the piece weight on the
         postage statements. According to Postal Service Headquarters BMA personnel,
         this is a known system glitch and there is a team currently trying to resolve this
         issue.

     •   Mailing Fee Overrides. The mailing fee overrides occurred due to a March 29,
         2009, PostalOne! change that “de-linked” metered and pre-cancelled accounts
         from the master accounts.15 Units nationwide had to manually re-link each of
         these accounts. District BME management stated they have re-linked all the
         accounts.

     •   Negative Balance Overrides. The negative balance overrides occurred primarily
         because of the time lag resulting from when the BMEUs received a customer’s
         check and when the Retail Associate entered the payment into POS. If the unit
         received a payment outside this Clerk’s workhours, the Clerk did not input the
         payment into POS until the next business day, causing a negative balance that
         the Clerk overrode.

We randomly selected 60 negative balance overrides, of 208 at the      BMEU
and 85 at the              BMEU, and we determined that BMEU personnel generally
cleared all negative balances within 2 to 3 days.

The district BME Manager stated they review the override reports weekly and
communicate with the units regarding the causes of the overrides. The district also
added the override report to the daily certification on the district website and has
required the units to review it daily since 2008. The district is studying the possibility of
providing POS access to the BMEU Technicians which may help in reducing some of
the negative balance overrides.




15
   Nationwide, unit employees improperly shared fees in PostalOne!. Therefore, on March 29, 2009, Postal Service
Headquarters "de-linked" all pre-canceled and metered accounts from the master permit imprint accounts. The unit
that accepted the fee payment had to “re-link” the fees. According to headquarters BMA personnel, they resolved all
issues reported to them through system feedback, voice mail, and e-mail and are not aware of any outstanding "fee
sharing" issues.




                                                        12
Northland District – Business Mail Entry                                                      FF-AR-09-224
 Financial Risk Audit


        APPENDIX C: MONETARY AND NON-MONETARY IMPACT SUMMARY

This table presents the monetary impact results identified during the audit, rounded to
the nearest dollar.

                                                                                 Recoverable
                                Finding Description                               Revenue
                Inactive customer trust accounts                                          $3,66416

This table presents the non-monetary impact results identified during the audit, rounded
to the nearest dollar.

                                                                                  Revenue at
                                Finding Description                                  Risk
               Late postage statements                                                     $63,648

               Periodicals mailings not verified                                          82,44817
               Total                                                                     $146,096




16
   During the week of June 22, 2009, we notified the units of the need to send cancellation notices for 49 inactive
accounts with balances totaling $23,430. As of August 4, 2009, the unit had sent all cancellation notices and
transferred balances and/or refunded customer accounts. We are claiming the amount transferred to Account
Identifier Code 126, Miscellaneous Non-Postal Revenue, as monetary impact.
17
   We computed total mailings for the three periodicals from June 2008 to May 2009. We calculated non-monetary
impact by splitting the total pound and total piece into 50 percent in county and 50 percent out of county.




                                                         13
Northland District – Business Mail Entry                    FF-AR-09-224
 Financial Risk Audit


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                           14
Northland District – Business Mail Entry        FF-AR-09-224
 Financial Risk Audit




                                           15
